January 2008
Report No. EVAL-08-003


Evaluation of Contract Rationalization


                          
                                                                                                           Report No. EVAL-08-003
                                                                                                                          January 2008

                                             Evaluation of Contract Rationalization
                                             Results of Evaluation
                                             The FDIC has informal processes in place for evaluating new procurement requests
                                             for potential duplication and existing contracts for continuing need. The FDIC relies
                                             on the knowledge of its two ASB Associate Directors as the primary mechanism to
                                             evaluate whether new procurement requests could be met through active contracts and
                                             whether there is a continuing need for existing contracts. ASB management also
                                             meets on a regular basis to review and discuss pre- and post-award contract activity.
Background and Purpose of                    Such reliance on a limited number of individuals can present continuity risks in the
Evaluation                                   event that the individuals separate from the Corporation. However, we confirmed
                                             with a procurement services consultant that most agencies rely on the knowledge of
The FDIC has approximately
                                             acquisition staff to determine potential duplication and continuing need.
$1.56 billion in outstanding contracts.
The Acquisition Services Branch (ASB)
                                             Further, this approach is reasonable considering that the FDIC’s procurement function
awards contracts on behalf of FDIC
                                             has been largely centralized and because the number of contracts has been reduced
divisions and offices for a broad array of
                                             through contract consolidation. However, this approach may not be sufficient in the
corporate services, from information
                                             future should the economic environment impacting the banking industry deteriorate
technology development contracts to
                                             and contracting activity correspondingly increase to facilitate increased resolution
contracts to assist with failed bank
                                             activity. ASB is developing an Automated Procurement System (APS) to provide
resolution and receivership efforts.
                                             improved contract management information that will help address this risk. ASB
                                             representatives indicated, and we confirmed, that the APS system will include query
Accordingly, it is important that the
                                             capabilities and ad-hoc reporting capabilities that will assist contracting officers with
FDIC make informed and strategic
                                             identifying duplicative contracts. In addition, ASB officials advised us that they
acquisition decisions when evaluating
                                             intend to provide training to users regarding the manner in which contracts are
new procurement requests for possible
                                             described in APS data fields to take full advantage of the system’s search and
duplication and assessing existing
                                             reporting capabilities.
contracts for continuing need. For the
purposes of this report, we refer to those
                                             Based on our testing of selected DRR contracts, we determined that these contracts
decisions as contract rationalization.
                                             were generally not duplicative of other corporate contracts and addressed a continuing
                                             need of the Corporation.
Our evaluation objective was to assess
whether the FDIC has mechanisms in
                                             We also identified two recurring system-related issues that may hinder ASB’s ability
place to periodically evaluate the
                                             to evaluate contracts for duplication or continuing need:
continuing need for contracts and
determine whether there are corporate
                                             •   Contracting activity reports from the New Financial Environment’s procurement
contracts that can be eliminated.
                                                 module continue to contain inaccuracies.
To accomplish our objective, we selected     •   Statements of work for 17 of the 39 DRR contracts we reviewed were not
Division of Resolutions and                      uploaded into CEFile, the FDIC’s official contracting file repository.
Receiverships (DRR) contracts to verify
they (1) did not duplicate the services      We, DOA’s Management Services Staff, and DRR Internal Review have previously
being provided under other corporate         reported and/or made recommendations on these issues. In addition, ASB has
contracts and (2) served a continuing        reported that sufficient corrective actions have been taken to close most of the
business need.                               recommendations. Finally, the contract management system (i.e., contracting activity
                                             reports) and CEFile were identified as non-material or second-tier issues—areas
                                             where improvements can be made—as a result of the Corporation’s 2006 assurance
                                             statement process. Nevertheless, the issues to some extent had not been resolved at
                                             the time we conducted our evaluation.

                                             Recommendations and Management Response

                                             The FDIC has ongoing actions to address the contracting activity report issues we
                                             identified. In addition, DOA officials indicated that the CEFile issue was limited to
                                             DRR contracts and, because our testing was limited to DRR contracts, we have no
                                             basis to know whether the deficiencies we noted extend to other divisions’ contracts.
                                             We also provided DOA with the information it needed to load the missing documents
                                             into the CEFile. Accordingly, we did not make recommendations in this report and
To view the full report, go to               written comments were not required. Management provided clarifications and
www.fdicig.gov/2008reports.asp               editorial comments that we have incorporated in this final report.
                            Table of Contents
                                                                     Page
EVALUATION OBJECTIVE AND APPROACH                                       1

BACKGROUND                                                              1

EVALUATION RESULTS                                                      2

      The FDIC Has Established Contract Rationalization Mechanisms      2

      Contract Rationalization Mechanisms Appear to Be Working          4
      for DRR Contracts

      Other Matters                                                     5

CORPORATION COMMENTS AND OIG EVALUATION                                 7

APPENDIX: Objective, Scope, and Methodology                             8
Federal Deposit Insurance Corporation                                                              Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                     Office of Inspector General




DATE:                                     January 2, 2008

MEMORANDUM TO:                            Arleas Upton Kea
                                          Director, Division of Administration



FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Evaluations and Management


SUBJECT:                                  Evaluation of Contract Rationalization
                                          (Report No. EVAL-08-003)


This report presents the results of our subject evaluation. The FDIC has approximately
$1.56 billion 1 in outstanding contracts and awarded approximately $206 million in contracts
during 2006. Thus, the FDIC’s ability to make informed and strategic decisions related to
contract rationalization—the evaluation of new procurement requests for potential duplication
and existing contracts for continuing need—is important to ensuring the efficient and effective
management of the FDIC’s acquisition program.


EVALUATION OBJECTIVE AND APPROACH

Our objective was to assess whether the FDIC has mechanisms in place to periodically evaluate
the continuing need for contracts and determine whether there are corporate contracts that can be
eliminated. To accomplish our objective, we selected Division of Resolutions and Receiverships
(DRR) contracts to verify they (1) did not duplicate the services being provided under other
corporate contracts and (2) served a continuing business need.

The appendix to this report describes in detail our objective, scope, and methodology.


BACKGROUND

The FDIC’s Acquisition Services Branch (ASB) of the Division of Administration (DOA) has
overall responsibility for the acquisition process. FDIC contracting officers in ASB award and
administer contracts in accordance with the FDIC Acquisition Policy Manual (APM). The APM


1
 This amount includes all active contracts and expired contracts that have not been formally closed out in the New
Financial Environment (NFE). The NFE is an enterprise-wide, integrated software solution to support the current
and future financial needs of the FDIC. NFE includes various financial software packages such as activity-based
management, asset management, budgeting, cash management, general ledger, payables, and receivables.
requires the program office 2 to provide ASB a complete requirements package. Specifically, the
APM states that the requirements package should contain a clear and specific description of the
goods and services required (statement of work), a detailed cost estimate, a period of
performance (with options), and expenditure approval.

Among other things, FDIC oversight managers (OM) are responsible for ensuring that
contractors’ work is performed satisfactorily in accordance with contract terms and conditions,
reviewing contractors’ invoices to ensure that services or goods have been delivered and are
represented correctly on the invoice, and assisting contracting officers during the contract
modification process.

Over the past few years, the FDIC has simplified its contracting environment by centralizing its
contracting operations in ASB and consolidating individual contracts. For example, in 2006,
DOA eliminated regional contracting operations in the San Francisco, Chicago, and Kansas City
regional offices. Contracting operations exist only in ASB Headquarters and in the Dallas
Regional Office. ASB has also greatly reduced the number of outstanding contracts by
consolidating contracts, such as the Consolidated Facilities Maintenance contract in DOA and
the Infrastructure Services Contract and Information Technology Application Services contract
in the Division of Information Technology (DIT).

As shown in the figure, DRR has the
third largest dollar percentage of
active contracts. DRR primarily
contracts for services associated
with assisting the FDIC in preparing
for possible bank failures, resolving
failed institutions, and managing
receivership assets through
disposition following failures.




EVALUATION RESULTS

The FDIC Has Established Contract Rationalization Mechanisms

The FDIC has established informal processes to evaluate new procurement requests for potential
duplication and existing contracts for continuing need. The FDIC relies on the knowledge of its
two ASB Associate Directors as the primary mechanism to evaluate whether new procurement
requests could be met by active contracts and whether there is a continuing need for existing
contracts. ASB management also meets on a regular basis to review workload status, including
pre- and post-award contract activity. ASB also communicates with the program offices and

2
  The FDIC division or office sponsoring and/or holding ownership of products leased or bought, or services
performed.

                                                        2
uses NFE reports to make procurement consolidation and elimination decisions. Nonetheless,
such reliance on a limited number of individuals can present continuity risks in the event that the
individuals separate from the Corporation.

Evaluating New Procurement Requests

The FDIC recognizes the need for strong planning during the procurement of goods and services.
The APM discusses the benefits of early communication between the program office and ASB
during acquisition planning efforts. The APM, among other things, states that early
communication allows ASB to identify upcoming requirements and plan how to meet them,
work with program offices to finalize statements of work, and combine duplicative requirements
for similar services.

When initial requests for new contract work are submitted to ASB, the Associate Directors make
an assessment based on first-hand knowledge and consultation with the program offices as to
whether the requests can be fulfilled using existing contracts. For example, the FDIC used its
In-bound Call Center contract, which exists to provide resources for the FDIC Central Call
Center, during Hurricane Katrina. Rather than awarding a new contract, the FDIC was able to
use the existing In-bound Call Center contract to establish a call center for Gulf Coast residents
because the services needed were within the scope of that contract. The FDIC also responded to
a request for benchmarking services from the Division of Finance by expanding the scope of an
existing DRR nationwide benchmarking services contract.

Determining Continuing Need

We discussed with ASB management the mechanisms they have in place to determine the
continuing need for contracts. ASB officials indicated that ASB staff meet on a regular basis to
review and discuss workload status and the continuing need for active contracts using the
monthly Management Data Report. The monthly Management Data Report provides
information regarding outstanding requisitions and contracts awarded by ASB.

ASB officials indicated that they also rely on continual input from the program offices to assess
whether there is a continuing need for a contract. Specifically, once a contract has been
awarded, the Associate Director and program officials meet on a regular basis to discuss the
program offices’ future contracting needs. If the work will be completed by the expiration date
of the contract, the contract will be allowed to expire. If there are future needs for the contract,
ASB will determine whether the contract should be extended or recompeted. This information is
then compiled in a spreadsheet and sorted by contract expiration date. If different program
offices have contracts involving similar services expiring in the same general period, the
Associate Director will discuss with the program offices involved whether the requirements can
be combined into one contract.

We discussed with ASB officials the risks associated with allowing dormant contracts and task
orders to remain active in NFE once contract work has been completed or the contract is no
longer needed. ASB officials responded that risks could include an improper payment made
against a dormant contract or outstanding balances due to the FDIC or a contractor associated

                                                 3
with a dormant contract. ASB officials indicated there are also safeguards in place that should
address risks associated with dormant contracts, such as (1) the contract specialist and OM
review the entire invoice before it is approved or rejected and processed for payment to ensure it
involves an active contract and (2) the contract closeout process involves a reconciliation and
verification that both parties to the contract have fulfilled their contract obligations and there are
no open issues or responsibilities remaining. We did not test the safeguards related to the close-
out process as part of our evaluation.

We confirmed with a procurement services consultant 3 that most agencies rely on the knowledge
of acquisition staff when evaluating new procurement requests for duplication and determining
any continuing need for existing contracts. The procurement consultant indicated that evaluating
contracts for duplication and continuing need is a legitimate concern for most agencies,
especially agencies with a distributed, or non-centralized, contracting environment. Some
agencies address this issue by having Contracting Officers specialize in separate areas. The
procurement consultant was not aware of any sophisticated contract management system in the
acquisition industry to identify duplicate requirements.

In that regard, DOA is developing a new automated procurement system (APS) which it plans to
implement by May 2008. ASB representatives indicated that the APS system will include query
capabilities and ad-hoc reporting capabilities that will assist contracting officers with identifying
duplicative contracts. DOA provided us with the APS requirements traceability matrix, and we
confirmed the matrix shows that there are a number of system requirements associated with
query capability and reporting. In addition, ASB officials advised us that they intend to provide
training to users regarding the manner in which contracts are described in APS data fields to take
full advantage of the system’s search and reporting capabilities.

Contract Rationalization Mechanisms Appear to Be Working for DRR Contracts

To test the FDIC’s mechanisms for avoiding contract duplication and assessing continuing need,
we evaluated existing DRR contracts. We judgmentally selected 39 of 61 contracts with a total
value of $62.2 million. 4 Our evaluation of the statements of work related to the 39 contracts
showed that these contracts were generally not duplicative of other corporate contracts and
addressed a continuing need of the Corporation.

During our review, we also learned that DRR has drafted a Long-Term Strategic Plan, dated
January 2007, which includes a contracting goal to establish a comprehensive contracting
strategy with objectives to (1) Establish a DRR program to ensure contracts are in place to
maintain readiness and (2) Review DRR contracting management policy and make revisions as
necessary. Table 1 below presents relevant excerpts from the Plan.


3
  CACI Dynamic Systems, Inc.
4
 We also evaluated active contracts for which the FDIC had not incurred any billings or costs as of the date of our
evaluation. We found that these contracts were primarily contingency contracts or active contracts in which the
contractor had not provided services to the FDIC; thus, we did not perform additional evaluation work. The
39 contracts in our sample represent 31 stand-alone contracts and 8 task orders from the Purchase Order Summary
Report dated 04/02/2007.
                                                         4
Table 1: Excerpts from DRR’s Long-Term Strategic Plan
 Deliverable                                                                       Estimated Target Date
 • Reviewing all DRR contracts and determining if additional contracts are         September 2007
     needed to maintain readiness.
 • Defining short- and long-term contracting priorities.                           October 2007
 • Establishing a process for continuous review of contracting needs.              March 2008
Source: DRR Long-Term Strategic Plan

This plan should provide a sound mechanism for assessing existing and planned contracts for
duplication and continuing need.


Other Matters

We identified two recurring system-related issues that may hinder ASB’s ability to evaluate
contracts for continuing need or duplication. First, contracting activity reports from NFE’s
procurement module continue to contain inaccuracies. Second, important contract documents
associated with the DRR contracts in our sample were missing from CEFile, the FDIC’s official
contracting file repository. We, DOA’s Management Services Staff, and DRR Internal Review
have previously reported and/or made recommendations on both issues, and ASB has reported
that sufficient corrective actions have been taken to close most of the recommendations. Finally,
the contract management system (i.e., contracting activity reports) and CEFile were identified as
non-material or second-tier issues—areas where improvements can be made—as a result of the
Corporation’s 2006 assurance statement process. 5 Nevertheless, the issues to some extent had
not been resolved at the time we conducted our evaluation. A brief discussion regarding both
issues follows.

NFE Reporting

In a prior evaluation report dated September 2006, 6 the OIG recommended that DOA work with
DOF and DIT to promptly correct inaccuracies in the Alert Report and Purchase Order Summary
Report and resume distribution of corrected informational reports to Contracting Officers and
Contract Specialists. According to the Internal Risk Information System (IRIS), 7 DOA, DOF
and DIT worked together to identify needed reporting query changes necessary to improve
5
   Each year, as required by the Federal Managers Financial Integrity Act, the Chairman must submit to the
President, OMB, and Congress a statement on the adequacy of internal and management/financial systems controls
at the FDIC. The statement is included in the FDIC’s Annual Performance and Accountability Report (Annual
Report). As part of the process leading to the 2006 assurance statement, managers were encouraged to identify non-
material challenges (second-tier issues).
6
   FDIC’s Contract Administration, (Report No. 06-026), dated September 2006.
7
   The Internal Risk Information System (IRIS) is the official FDIC tracking system for all GAO and OIG audits
and reviews. IRIS is used to track audit findings/conditions, recommendations, and corrective actions/milestones.
Divisions/Offices can also use IRIS to track results of their internal control reviews (ICRs), visitations, internal
reviews, management control reviews, and other activities related to managing risks.
                                                         5
reporting accuracies and closed the recommendation. However, based on our analysis of NFE
reports, we noted that deficiencies in the Purchase Order Summary Report persist. We found
instances where the department identification, oversight manager’s division, and the responsible
oversight manager fields in the report were not always accurate. The DRR Internal Review Unit
found similar issues when it performed its review in April 2007. According to the DRR internal
review report, the Purchase Order Summary Report typically contains incomplete and inaccurate
data that requires manual changes in order to identify all DRR contracts and task orders. During
our review, we confirmed with DRR staff that NFE reports were still requiring significant
manual intervention to compile a complete and accurate listing of DRR contracts. DRR is
currently working with DOA and OMs to correct the data quality issues. Although we are not
making a recommendation, it is important that these issues be resolved to facilitate effective
contract administration.

Missing CEFile Data

We also found that statements of work for 17 of the 39 DRR contracts that we selected for
review were not entered into CEFile, although the two responsible contracting officers were able
to provide us with hard copies. CEFile is the FDIC’s official electronic contract file of record
and its use is required by all acquisition personnel in the Headquarters and Regional Contracting
Offices. CEFile is a Web-based template utility on the FDICnet used to create official purchase
orders and contract files and to electronically organize and store contractual documents in the
FDIC Digital Library. 8 The CEFile should document the basis for the acquisition and the award,
the assignment of contract administration, and any subsequent actions taken by ASB. ASB
issued interim Acquisition Policy Number 2004-05, which states that it is the responsibility of
both the contract specialist and the oversight manager to ensure that their CEFile is current,
accurate, and complete.

As stated in Acquisition Policy Number 2004-05, the CEFile must be sufficient to constitute a
complete history of the transaction for the purpose of (a) providing a complete background as a
basis for informed decisions at each step in the acquisition process; (b) supporting actions taken;
(c) providing information for reviews and investigations; and (d) furnishing essential facts in the
event of litigation or congressional inquiries.

We discussed this issue with DOA officials, and they indicated there is a lack of available
administrative support to assist the two contracting officers with updating CEFile for DRR
contracts. Further, these officials told us they have a taken a number of steps to ensure that
CEFile has been updated and they maintained that the instances we found were isolated to DRR
contract files.

In our previously referenced report (Report No. 06-026, dated September 2006), we made
several recommendations to address findings related to CEFile. Table 2 on the following page
presents the status of these recommendations.



8
   The FDIC Digital Library (FDL) is an electronic repository created for the storage and management of FDIC
electronic documents.
                                                       6
Table 2: Status of Prior Recommendations Related to CEFile
Rec.
#      Recommendations              Corrective Actions Taken                                               Status
4      Reiterate to all acquisition ASB issued a memo dated 10/18/06 to FDIC contracting                   Completed
        personnel, including OMs, the          officers and oversight managers reminding these officials
        requirement to use CEFile to record    of the requirement to maintain contract file
        contract documentation and events.     documentation in CEFile. ASB also issued a revised
                                               Letter of Oversight Manager Confirmation (FDIC
                                               3700/22 (10-06)).
5       Issue guidance to Contract             On December 26, 2006, the Assistant Director, ASB, sent     Completed
        Specialists and OMs that lists         a memorandum to all FDIC contracting officers and
        specific contracting documents and     oversight managers. The memorandum provided updated
        contracting events that should be      guidance for standardizing the organization and location
        recorded in CEFile and standardizes    of required documents within CEFile.
        the organization and location of
        required documents within CEFile.
6       Establish an internal quality review   ASB sent an e-mail dated December 28, 2006 to remind        Completed
        program or process for routinely       ASB’s section chiefs that a quarterly review was
        monitoring CEFile to ensure            scheduled for January 2007 and that CEFile will be
        completeness of individual contract    reviewed to ensure documentation is present and that it
        file contents.                         adequately supports the actions taken (post-award
                                               review).

Source: OIG System for Tracking Audits and Reports

As shown, DOA has reported and we confirmed that corrective actions were taken to address all
three recommendations. In addition, because our testing was limited to DRR contracts, we have
no basis to know whether the deficiencies we noted extend to other divisions’ contracts. As a
result, in lieu of making a recommendation, we provided DOA a listing of those contracts
lacking statements of work in CEFile, and DOA officials agreed to promptly upload the
documents into the system.


CORPORATION COMMENTS AND OIG EVALUATION

A draft of this report was provided to FDIC management for review and comment. The draft
report did not include recommendations, and thus did not require a written response. DOA and
DRR management advised us they would not be preparing written comments, but they did
provide us with clarifications and editorial comments that we have incorporated in this final
report, where appropriate.




                                                        7
                                                                                     APPENDIX


                      OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess whether the FDIC has mechanisms in place to periodically evaluate
the continuing need for contracts and determine whether there are corporate contracts that can be
eliminated. To accomplish our objective, we conducted interviews with DOA management to
understand the mechanisms used by contracting officials to evaluate the continuing need for
contracts. We focused our review on procurement actions in DRR because DOA has
consolidated many of the contracts within DOA and DIT. We judgmentally selected and
reviewed statements of work from 39 DRR contracts to determine if contracts were duplicative,
overlapped, or could possibly be eliminated.

Evaluation Methodology

To accomplish our objectives, we did the following:

   •   Obtained contract listings from NFE and verified the accuracy of these listings through
       discussions with DOA officials.

   •   Met with DOA to identify mechanisms used by contracting officials to evaluate the
       continuing need for contracts.

   •   Stratified the contract listing by division and met with DRR officials to gain an
       understanding of the status of each DRR contract and whether the contract was active.

   •   Judgmentally selected 39 DRR contracts whose awarded contract value totaled $62.2
       million and which represented approximately 83 percent of the value of total contracts
       and task orders outstanding. We evaluated individual contract statements of work, scope
       of effort, and contract terms to identify contracts that may be duplicative or no longer
       needed. These consisted of 31 stand-alone contracts and 8 task orders from the Purchase
       Order Summary Report dated April 2, 2007.

   •   Reviewed past FDIC OIG and GAO reports relevant to our scope and objective.

   •   Reviewed FDIC APM policies applicable to our objective.

   •   Conferred with a procurement services consultant for best practices information in the
       area of contract duplication and overlap.

   •   Obtained and reviewed the draft DRR Contracting Plan and Long-Term Strategic Plan.

   •   Reviewed contracts/requisitions with limited or no activity to determine if these
       procurement actions were still needed or could be eliminated.

We performed our evaluation from April 2007 through August 2007, in accordance with the
Quality Standards for Inspections.

                                                8
